<html>
<title> - U.S. POLICY TOWARD THE ARABIAN PENINSULA: YEMEN AND BAHRAIN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      U.S. POLICY TOWARD THE ARABIAN PENINSULA: YEMEN AND BAHRAIN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

                           Serial No. 113-84

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-640 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida














                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Ms. Barbara Leaf, Deputy Assistant Secretary for the Arabian 
  Peninsula, U.S. Department of State............................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Barbara Leaf: Prepared statement.............................     7

                                APPENDIX

Hearing notice...................................................    28
Hearing minutes..................................................    29

 
      U.S. POLICY TOWARD THE ARABIAN PENINSULA: YEMEN AND BAHRAIN

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Congressman Ted Deutch, the 
ranking member is on his way, for 5 minutes each for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute each. We will then hear from our 
witness, and without objection, the prepared statements will be 
made a part of the record, and members may have 5 days to 
insert statements and questions for the record, subject to the 
length limitation in the rules.
    The chair now recognizes herself for 5 minutes. With so 
much focus being given to the conflict in Syria, the ever-
changing political landscape in Egypt and, of course, Iran's 
march toward full nuclear breakout capability, it is vitally 
important that we not lose sight of the big picture and remain 
engaged throughout the region. The U.S. must look ahead and try 
to anticipate problems before they arise, by being proactive 
rather than reactive as all too often we are.
    Today, we take a look at two of those countries, Yemen and 
Bahrain, that may not get much media attention, but whose 
recent developments are a cause for concern for U.S. national 
security interests and may have regional implications as well.
    After more than 33 years in power in Yemen, the President 
of Yemen was forced to resign from office in early 2012 as a 
result of a rising tide of pro-democracy movements in Yemen. 
Since that time, Yemen has been in a period of political 
transition as the Yemeni people attempted to draft a new 
Constitution, implement new electoral laws, and move toward a 
more inclusive governing body by implementing a national 
dialogue process.
    The U.S. and the international community must support the 
national dialogue in its effort to get a consensus on how to 
move the country forward toward a path for democracy. But in 
order for the political process to stand a chance, the economy 
and the security situation must all improve in Yemen. There has 
been a serious and a worrisome rise in extremism, and civil 
unrest has not simmered down.
    Contrary to what some in the administration believe, al-
Qaeda has not been decimated. It is not on the run. It is 
resurgent throughout the region, and Yemen is no different. The 
fragile socioeconomic and political situations in Yemen has 
fostered an environment that allows al-Qaeda in the Arabian 
Peninsula, to gain a safe haven from which to operate, posing a 
serious threat to Yemen's stability and to our U.S. national 
security.
    But just as Yemen has seen its fair share of uprisings as a 
result of the Arab Spring, so has Bahrain. Bahrain has served 
as the long-term headquarters of the United States Navy Fifth 
Fleet, so it is in the vital interest of our national security 
to see a stable, unified, and democratic Bahrain. In 2002, it 
appeared that the Government of Bahrain had set itself out on a 
path toward democracy. A national action charter was adopted by 
the people that led the way to Bahrain's first parliamentary 
elections in nearly three decades and the first municipal 
election in almost 50 years. Suffrage was extended to women. 
Political parties were finally legalized, and I introduced a 
resolution praising these efforts in July 2004. That resolution 
reaffirmed the friendship between the United States and Bahrain 
and offered to assist them in the future should any challenge 
arise on its road to democracy, and that offer still stands.
    Fast forward to 2011, it became clear that Bahrain did not 
reach the end of the path toward democracy. The political 
dialogue that began in 2011 had failed to bring about any of 
the reforms required with several prominent members of the 
moderate reform party as being targeted by the regime for 
arrest and prosecution. The administration has largely remained 
silent throughout most of the process, but it needs to be more 
vocal and supportive of the nonviolent moderate reformists in 
Bahrain and it must stress to the government the importance of 
a political solution that can only be achieved by the people of 
Bahrain themselves.
    It must also call attention to the growing number of 
reports on human rights abuses in the country and the 
increasing numbers of political prisoners. All sides must come 
together in Bahrain to find a political solution and the 
administration must work with the government and the opposition 
to come together to solve their disputes, address human rights 
abuses and fully implement the recommendations of the Bahrain 
Commission of Inquiry.
    As we convene this hearing today, I look forward to hearing 
the administration's strategic goals and objectives in both 
Yemen and Bahrain and what concrete steps we are taking to 
ensure regional stability as well as furthering U.S. national 
security interests.
    Thank you. And with that, I am pleased to turn to our 
ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, ma'am.
    Thank you, Madam Chairman, and I am pleased today that we 
will have the opportunity to focus on a region of vital 
importance to the interest of the United States.
    And I thank you, Deputy Assistant Secretary Leaf for 
joining us. I know you recently returned from the region. We 
look forward to hearing how things are progressing both in 
Yemen, and in Bahrain.
    You know, 3 years ago, inspired by events in Tunisia, the 
people of Yemen courageously took to the streets to add their 
voices to the growing discontent with stagnant economic 
conditions, repression of freedoms and government corruption 
that seemed to be sweeping the Middle East and North Africa. 
Within months, the Gulf Cooperation Council presented President 
Saleh with a plan to cede his 30-year grip of power to then 
Vice President Hadi. It has now been 21 months since Hadi took 
over as interim President. The GCC-backed agreement called for 
national dialogue that would eventually give way to a new 
Constitution, followed by local and national elections.
    By comparison of many of its neighbors, Yemen's political 
transition seemed to be progressing positively. The national 
dialogue included 565 representatives from across the political 
spectrum with a mandate that one-third of the participants be 
women, while youth accounted for one-fifth of the participants. 
A secular woman was even appointed chair of one of the 
committees. However, meetings have stalled since September, and 
I am concerned that there will be a lack of progress now that 
difficult questions about Yemen's future are pending.
    We must continue to urge national dialogue to move forward 
with real solutions and mechanisms for implementing its 
recommendations. We have got to continue to feed momentum 
toward the drafting of an a new Constitution and eventually new 
elections. The United States can play an extremely important 
role in providing technical support for free and fair 
elections, working with civil society to support an inclusive 
democratic process and instituting needed economic reforms. But 
I am increasingly concerned that our efforts to assist the 
political transition and aid in economic development are often 
overshadowed by an overwhelming focus on our security 
relationship with Yemen. Al-Qaeda and the Arabian Peninsula 
activities in Yemen has proven to be a breeding ground for some 
of the organization's most influential leaders. As Yemeni 
security forces struggle to root out terrorists, it raises 
questions about what kind of training and support the United 
States is providing on the ground. How has our reliance on 
drone strikes to reach these high-level targets hindered our 
relations with the Yemeni people, and what exactly is our long-
term strategy for Yemen?
    Yemen is widely believed to be on the front line in our 
fight against terror, but I am concerned that whether our level 
of security assistance reflects the need. U.S. assistance to 
Yemen totaled $256 million for Fiscal Year 2013, but these 
funds come from 17 different accounts, all with very different 
objectives.
    Deputy Assistant Secretary Leaf, I hope that you will 
address any ongoing discussions to reevaluate our assistance 
and provide a long-term strategy for ensuring a stable and 
inclusive Yemen.
    Turning to Bahrain, the United States, and Bahrain have 
enjoyed, long enjoyed a close partnership by Bahrain housing 
the U.S. Navy's Fifth Fleet, having hosted it now for over 60 
years. This relationship plays an integral part of security in 
the Persian Gulf. The King has remained a steadfast partner of 
the GCC and our regional efforts to address mutual security 
concerns. Since the 2011 demonstrations, the government has 
undertaken a process to institute various reforms for a more 
inclusive government. The commencement of a national dialogue 
led by the Crown Prince was promising, but the continuing 
violence and recent boycotts by the opposition threatened to 
unravel progress. The U.S. response to the uprisings in Bahrain 
has been somewhat puzzling.
    And I hope that today, Secretary Leaf, you will be able to 
provide some clarity as to how the United States plans to 
balance our security and interests in our close partnership 
with Bahrain with our expectations for human rights. How do we 
balance those two?
    Our Gulf allies are playing an increasingly critical role 
in regional geopolitics. How are Yemen and Bahrain affected by 
U.S. relationships with other regional powers, with Saudi 
Arabia, with Qatar? And as we work together to counter the 
Iranian influence in Syria and across the Gulf and prevent a 
nuclear armed Iran, communication and cooperation is essential.
    How do we work on parallel tracks to support democratic 
values, strengthen economic factors, and stabilize the security 
of our regional partners? So Secretary Leaf, I recognize that 
there is no one-size-fits-all policy toward our friends in the 
Arabian Peninsula, but I appreciate you being here today to 
shed light on our long-term strategy, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    I am pleased to yield for a 1-minute opening statement to 
Mr. Weber of Texas.
    Mr. Weber. I am ready to go.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Schneider of Illinois.
    Mr. Schneider. I am ready.
    Ms. Ros-Lehtinen. Ready to go.
    Mr. Kennedy of Massachusetts.
    Mr. Kennedy. I am not going to break the trend. Thank you, 
Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much and now our 
committee, the subcommittee, is very pleased to welcome Ms. 
Barbara Leaf, who is Deputy Assistant Secretary for the Arabian 
Peninsula at the State Department. Prior to this position, Ms. 
Leaf was the Deputy Assistant Secretary for Iraq and previously 
served as the first director of the State Department's Office 
of Iranian Affairs. She is also a member of the Senior Foreign 
Service.
    Welcome, Ms. Leaf, and we look forward to your testimony. 
Thank you, ma'am.

 STATEMENT OF MS. BARBARA LEAF, DEPUTY ASSISTANT SECRETARY FOR 
        THE ARABIAN PENINSULA, U.S. DEPARTMENT OF STATE

    Ms. Leaf. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the subcommittee, thank you for inviting me here 
today to discuss two quite important countries for the U.S. in 
the Middle East, Yemen and Bahrain.
    I have just returned from a trip to this region, and I 
welcome the chance to discuss them with you and ask that my 
full testimony be submitted for the record.
    Ms. Ros-Lehtinen. Without objection.
    Ms. Leaf. On Yemen, the U.S. enjoys a strong and 
comprehensive relationship with the government of President Abd 
Rabbuh Mansour Hadi and the Yemeni people. I visited Sana'a 
last week for 5 days to underscore our support for Yemen's 
historic transition and continued bilateral security 
cooperation. Yemen continues to make significant strides 
forward in its political transition, even while it faces 
unprecedented challenges. Since the new November 2011 signing 
of the GCC brokered transition initiative, Yemen has taken 
several big steps forward, including the launch of a national 
dialogue conference this march, a gathering of 565 delegates 
from across the political spectrum, indeed across the country, 
brought together for the most inclusive discussion of its kind 
in Yemen's history. The dialogue has accomplished what many 
thought impossible as Yemen stood on the brink of civil war a 
little more than 2 years ago. Political elites, travel elders, 
women, youth, civil society activists, and representatives of 
minority communities have gathered to share ideas and develop 
meaningful recommendations and proposals for Yemen's future. 
Despite these positive achievements, disagreement over the 
future state structure has delayed the dialogue well beyond its 
scheduled September 18 conclusion. We are actively engaging 
with President Hadi and other Yemeni political leaders to 
encourage a consensus agreement on principles of the state 
structure to allow the dialogue to conclude and subsequent 
transition steps, including constitutional reform, 
constitutional referendum and national elections, to proceed.
    However, there also remains spoilers' intent on disrupting 
or derailing the transition process, from members of the former 
Saleh regime to political opportunists bent on bolstering their 
own support at any cost. While we do not believe these 
detractors will succeed in their attempts, we continue to make 
clear that we will not tolerate any attempts to subvert the 
process. We are in close coordination with the international 
community in Sana'a as well as the U.N. and other international 
partners to encourage transition progress. The GCC in 
particular has played and will continue to play a critical role 
supporting Yemen throughout its transition. Economic reform and 
development will also be a key underpinning of the transition 
success.
    Yemen's economy is showing some signs of recovery since the 
events of 2011. In tandem with international partners, we have 
made clear to Yemen that undertaking specific achievable 
economic reforms today, is essential to building the foundation 
necessary to address the needs of all Yemenis. As Yemen tackles 
these issues of reform, it continues to cope with serious 
economic and social challenges affecting the everyday lives of 
Yemenis. Investment in the economic and social wellbeing of the 
Yemeni people as well as immediate relief for urgent 
humanitarian needs is necessary to help realize the 
transition's full potential.
    Finally, the Yemeni Government has made some gains in 
extending the security in the country, both through military 
operations against al-Qaeda in the Arabian Peninsula and 
through a challenging reorganization of security institutions. 
However, as President Obama said in his May speech at the 
National Defense University, AQAP is the most active 
organization plotting against our homeland. We have encouraged 
the Yemeni Government to continue progress on restructuring of 
the military and security services, which will strengthen 
Yemeni capacity to secure the country against internal and 
external threats. We view continued use of U.S. support for the 
Yemeni security sector as critical as the country continues to 
battle an AQAP presence within its borders.
    Turning to Bahrain. Bahrain is a major non-NATO ally and a 
steadfast partner in regional security, host to the Fifth Fleet 
and U.S. Naval Forces Central Command, Bahrain is home to our 
main naval operating base in the Middle East. Our relationship 
with Bahrain allows us to address threats to national security 
interests, ensure open sea lanes for international commerce, 
and counter piracy. The U.S. is committed to this relationship.
    During my visit to Bahrain this past September, I met with 
a wide range of Bahraini interlocutors, from government 
officials to political society leaders, civil society members. 
I saw firsthand the importance of this relationship to 
Bahrainis in general. The complex challenges Bahrain is facing 
and the ways in which the U.S. can support Bahrain's transition 
beyond this challenging period in its history, a more stable 
secure and prosperous Bahrain will enable us to continue to 
build our strong security partnership, meet our national 
security goals across the region, and promote reform, human 
rights, and dialogue.
    November 23rd marks the 2-year anniversary of the landmark 
Bahrain Independent Commission of Inquiry report. King Hamad 
demonstrated strong leadership in convening the body and taking 
on board the recommendations in the report and committing to 
implement them in full. Two years later, the government has 
made some progress, but much remains to be done, particularly 
in the areas of accountability for police abuse, freedom of 
expression, and media incitement.
    The First Deputy Prime Minister's Office has laid out an 
additional set of measures aimed at addressing both BICI report 
recommendations, as well as other initiatives that go beyond 
the scope of the report. These include projects to rebuild 
mosques and religious structures demolished during the 2011 
unrest and construction of new housing tracts. They are 
positive steps that can help rebuild trust.
    As you noted, the Bahraini Government announced a national 
dialogue in early 2013. Regrettably those talks have broken 
down, and the opposition societies maintain a boycott of the 
dialogue that they initiated in September as a result of a 
deteriorating political environment. An end to the dialogue 
would leave both Bahrain's political societies and its 
government with no formal mechanism to negotiate a path 
forward. We have consistently urged the opposition to return to 
the table and demonstrate political courage in denouncing 
unequivocally all violent acts. At the same time, we have 
consistently pressed the Bahraini Government to take concrete 
steps that would improve the environment for dialogue. We are 
deeply committed to working with all parties in Bahrain to move 
beyond this period of crisis, which, by the way, is a term that 
every, literally, every Bahraini used with me, whether inside 
government or outside.
    In the end, however, we do agree that Bahrainis themselves 
must find the solution. It must be a Bahraini-driven solution. 
But strong leadership is needed from all sides in order to move 
Bahrain beyond its current situation of impasse. Thank you for 
the opportunity to testify, and I look forward to answering any 
questions you may have.
    [The prepared statement of Ms. Leaf follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Thank you for that 
testimony, and thank you for the written testimony as well.
    Ms. Leaf, in May 2012, President Obama issued Executive 
Order 13611, blocking property of persons threatening the 
peace, security, or stability of Yemen. This gave the Treasury 
Department authority to freeze U.S.-based assets of anyone 
deemed to be obstructing the political transition in Yemen or 
who is engaged in activity that threatens Yemen security or 
political stability, yet I believe that no individual or entity 
has yet been sanctioned under Executive Order 13611. And will 
sanctions now be considered as we see some obstruction taking 
place once again in Yemen?
    How effective has this tool been if we have not yet used 
it, and do you believe that it could be effective in helping to 
create a stable environment for the political transition to 
proceed? And I will continue, and then I will let you answer if 
you could.
    It is clear that the economic situation in Yemen is rapidly 
deteriorating. Yemen relies heavily on foreign assistance from 
neighboring countries in the Gulf, most notably, its neighbor 
to the north, Saudi Arabia, but also the United States. 
However, late last month, Saudi Arabia said that it would halt 
its aid to Yemen, and to make matters worse, it has been 
deporting Yemeni workers from Saudi Arabia by the tens of 
thousands.
    You testified that we will continue to work with our 
international partners to provide the incentives and support 
Yemen in carrying out what we hope will be its reform agenda. 
What incentives are we providing? Have we been using our 
leverage with the GCC to get them to provide much more of the 
needed development assistance for Yemen? And in Fiscal Years 
2011 and 2012, Yemen received about $27 million in economic 
support funds. In Fiscal Year 2013, State requested $38 
million, and now, in Fiscal Year 2014, you have requested $45 
million. What is the justification for this increase in ESF 
funds, and what kinds of programs do we want to implement or 
augment with that additional money? What kind of return on 
investment are we seeing with all of our assistance to Yemen?
    Thank you very much, Madam.
    Ms. Leaf. Thank you for that set of questions. First, to 
the issue of sanctions, whether they be bilateral sanctions or 
U.N.-based sanctions. I would say that at this point, we are 
closely evaluating the situation and whether there is a need to 
go forward with anything specific at this time. We are in very 
close and constant touch with the government, with President 
Hadi himself. I met with him a week ago during my visit, and we 
went over the proximate set of obstacles to concluding this 
phase of the transition, which means wrapping up the dialogue.
    I think we are going to evaluate carefully before we move. 
We have a number of tools, obviously, available, and we have 
been in discussion with what we call the Group of 10 
Ambassadors, missions in Sana'a, as well as partner countries.
    I stopped in Riyadh on the way home from Sana'a to discuss 
these issues. We want to allow President Hadi and those who are 
directing, who are running the national dialogue to take the 
steps that they want to do, not get out in front of them, but 
be ready to act as needed. So we are in the process of 
evaluating exactly this right now. I would say it is--while 
there is a degree of obstructionism by former regime elements, 
there are also genuine political issues at play right now that 
are--that have to be resolved. They mostly relate to the north-
south divide and the issues as to how a future state set of 
structures will be elaborated.
    So there are legitimate political issues that need to be 
finessed. And then there is also elements of what I would call 
possible obstructionism. Now, whether they are enough to block 
the conclusion of this phase is yet to be determined. But we 
will be ready to assist President Hadi all along the way in 
this because it is a critical first step, and you--and this 
step will then take us to the next, or take Yemen to the next.
    On the issue of economic assistance, of course, Saudi 
Arabia is by far the largest donor of the group of donor 
countries. The GCC as a block have pledged something on the 
order of $4.4 billion, and of that, Saudi funds are $3.25 
billion. There have been ongoing discussions among donors and 
with Yemeni Government, both on a bilateral basis and in other 
groups, such as the Friends of Yemen, about how the Yemeni 
Government can best leverage those funds. To put it politely, 
there is endemic corruption and a certain large 
dysfunctionality in Yemeni Governments that goes back three 
decades. Donors naturally want a fair degree of accountability 
so that their funding goes against the areas of need. We have, 
as donors set up and the World Bank helped to craft this 
approach, what we call a mutual accountability framework, an 
executive board that is going to be the liaison between Yemeni 
Government and donors to ensure that the funding can flow and 
the funding can flow directly to the needs defined. So that was 
one of the issues that I discussed both with the government as 
well as with the donor community in Sana'a.
    Ms. Ros-Lehtinen. Let me just interrupt you a second 
because I had another question. With the Bahrain Independent 
Commission of Inquiry they had made 26 recommendations. Has the 
government implemented those? And that is dealing with the 
investigation and reporting of a pro-democracy protest that 
took place between February and March 2011. What can you tell 
us about that?
    Ms. Leaf. We issued a report, a sort of a report card, if 
you will, in August on this sort of the state of play on BICI 
recommendations, and I would say it is a mixed bag. The main 
shortcomings are in accountability. Accountability for abuses, 
excesses committed by security forces during the unrest. 
Obviously, there are some structural reforms that need to be 
tackled, and I think it is fair to say the government is 
beginning those--is putting those steps in place. But 
accountability, they have certainly fallen short and that is 
something that we have raised regularly with the government. I 
met with the new ombudsman this summer. He has started work 
pretty energetically, he and his team. This is a piece of 
structural reform that I think will essentially help in the 
accountability piece.
    Ms. Ros-Lehtinen. Thank you very much, I appreciate it.
    Mr. Deutch is recognized.
    Mr. Deutch. Thanks.
    Thank you, Madam Chairman.
    Deputy Assistant Secretary Leaf, I am concerned that there 
has been so much focus on completing the national dialogue in 
Yemen, that other really important, critically important 
factors have been overlooked. It is my understanding that none 
of the committees in the national dialogue have focused on any 
large-scale economic issues, which was a key driver of the 2011 
unrest. What are we doing? What is the United States doing to 
assist with the economic development issues or the kinds of 
economic reforms that ultimately will be necessary to secure 
any sort of IMF loan?
    Ms. Leaf. You know, the thing that struck me when I was in 
Sana'a is that basically all eyes are focused now on this end 
game of the first phase of the transition timeline. All eyes 
are focused on that, even in places like the Ministry of 
Defense, there is sort of a waiting to see how this finishes 
out. The working groups, there are nine of them, as you may 
know, have tackled a range of issues that will go into drafting 
a new Constitution. But the issues that have really seized the 
dialogue and that have sort of gripped them at this point 
relate to the north-south cleavage, which is a critical piece 
of future stability to get past.
    We are putting--we and other donors, the donor community, 
are putting money against efforts to improve in the immediate 
term, because the government of President Hadi of course, is a 
transition--transitional government, and hereto, frankly, I 
would say even the government ministers who were in charge of 
these areas, the foreign minister himself, have regretted that 
there is not enough energy and push by the government to tackle 
these structural reforms. I would say, frankly, that there is a 
sense of reluctance to do things that are politically risky 
right now. The more so because of this stalemate right now that 
has developed over this end game piece of the national 
dialogue.
    But we are putting money toward a variety of sectors, and 
they would help the government improve social services 
delivery, which is a critical issue, and was a--has been long 
been a flash point of instability, especially in the south, 
which has felt substantially shortchanged, and to promote 
sustainable policy reforms. But I would say that we have--what 
we are trying to do is help the Yemenis, the dialogue, 
participants, and President Hadi, get over this political hump 
even as we are beginning to bear in on some of the structural 
economic issues, and the Yemenis are in a prolonged 
conversation with the IMF about a loan program. But they are, 
shall we say, reluctant to tackle some of the reforms right now 
that they need to do.
    Mr. Deutch. But what are we doing to help with that? I 
understand the focus on helping to deliver what services and 
the rest, but on the requirements that the IMF would demand, 
any sort of reforms that would help address those fundamental 
issues, what are we doing?
    Ms. Leaf. They are--we are pushing them. We are pushing 
them. All of the donor community is pushing, you know, with the 
force of a large community to get them to do things on 
essentially ghost workers, cleaning out the rolls of the 
government, pension rolls, and tackling fuel subsidies. We are 
looking at some incentivations to help them over this hump.
    Mr. Deutch. And the Friends of Yemen Group, which was 
initially organized, the United States, Britain, and 24 other 
countries, has pledged nearly $8 billion. Only $2.2 billion, it 
is my understanding, only $2.2 billion has been delivered. You 
spoke about corruption. You spoke about efforts that are 
underway to try to address that to make sure the dollars get 
where--the money gets where it is supposed to. Is that enough 
to convince our friends to fulfill their pledges? What do they 
need to see for their commitments to be upheld?
    Ms. Leaf. I think so. They have just appointed the 
executive board. I met with the interim director of the board. 
I do think it will be enough to start moving things forward. So 
yes.
    Mr. Deutch. And if I may, Madam Chairman, just for one 
last----
    Ms. Ros-Lehtinen. Absolutely.
    Mr. Deutch [continuing]. Thing on Bahrain. The Crown Prince 
has taken a lead in Bahrain in negotiations with the 
opposition, instituting reforms. How much leeway does the Crown 
Prince really have? How much space does he really have to 
accomplish the reforms?
    Ms. Leaf. You know, Congressman, as the King appointed him 
as First Deputy Prime Minister last spring. I, you know, it is 
early days to see how far he is going to get in some of the 
things that he has laid out, but what we have seen is he has 
got a pretty ambitious plan that combines, as I said, elements 
of BICI implementation, which the King himself has committed 
fully to implement. So that is already--that is sort of already 
part of the record or the government's public commitment.
    He has a slate of other activities and programs that he 
would like to take forward. We don't really, I would say, peg 
everything on the Crown Prince or the First Deputy Prime 
Minister. We are looking at this as a whole of government 
requirement, and we work with all of the ministers, the King, 
the Prime Minister. The government owns this whole set of 
problems, not just the First Deputy Prime Minister. So we don't 
personalize it to say that all of our efforts hang on him. He 
is an important figure in the government, but there are line 
ministries which have responsibility in both accountability as 
well as the larger reform effort.
    Mr. Deutch. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Deutch, thank you.
    Mr. Weber of Texas is recognized.
    Mr. Weber. Madam Chair, why don't you pass me up right now 
and get back to me.
    Ms. Ros-Lehtinen. Sure. All right. Mr. Kinzinger.
    Mr. Kinzinger. I don't have any questions.
    Ms. Ros-Lehtinen. Dr. Yoho?
    Mr. Yoho. Thank you, Chairman Ros-Lehtinen, for holding 
this very important hearing.
    Ms. Leaf, thank you for lending your considerable expertise 
into the hearing on the very important issues of the United 
States policy toward Yemen and Bahrain. The escalating 
political uncertainty in both countries should give us all 
pause, so as we can evaluate our strategy in the region and 
make sure it is the most effective it can be at securing our 
national interests while promoting peaceful democratic reforms. 
I look forward--unfortunately, I missed your opening lines, but 
I look forward to this hearing to find out how we can better 
utilize the aid we give, not just in money and food but the 
military, how we can utilize that better to get a more 
favorable outcome. Because what I see is a repeat of so many of 
the policies we have done in the Middle East. In your 
experience, you know, we promote democracy, but yet we do that 
in a country that doesn't believe the same way we do. How can 
we better approach that to get the results that we both want, 
you know? I know there is something on their side that they 
want, and there is something on our side that we want. What 
would you recommend to do different than we have maybe done in 
the past?
    Ms. Leaf. You know, the interesting thing about Yemen, is 
that even while we, the country, the government is grappling 
with this huge, really seismic political transition, our own 
mission is working in pretty difficult circumstances in terms 
of the security environment, and yet we get out and we engage 
across the board in all of the critical sectors where action by 
the Yemeni Government and by us and other donors is really key 
to them being successful in this.
    So that is in military restructuring where our advice to 
the military and security services is quite critical and is 
highly valued. It is in counterterrorism assistance and 
essentially trying to help stimulate and grow their capacity to 
tackle the internal fight to secure their borders, maritime and 
to take the fight to al-Qaeda. But on the political and 
economic, our small and hardy but very talented and committed 
staff, both USAID and State, works up and down the spectrum of 
political activists and civil society members and is really 
engaging through both with the national dialogue but also the 
elements of society that have become newly active in a way that 
really Yemen has never seen before.
    Mr. Yoho. All right, let me ask you something else. Do they 
have a workable Constitution?
    Ms. Leaf. Constitution drafting is the next step.
    Mr. Yoho. All right, is there--I mean, the thing that made 
our country so great, it was from the ground up, and what we 
have learned is, you know, life, liberty, pursuit of happiness 
for all, and you can't have personal freedom without economic 
freedom.
    Ms. Leaf. Okay.
    Mr. Yoho. Are they going to have things in there like 
property rights and human rights and things like that that they 
would agree on, that, again, is more of a Western value that we 
don't see so much, like the freedom of religion, the freedom of 
free speech, the freedom to organize. Do you see that on the 
horizon as something that will happen over there, and is that 
something--I guess the big thing that helped us here in the 
early years in the 1700s and the 1800s was the knowledge that 
the base, the population had and the understanding of those 
rights. Is that feasible in that country or in Bahrain?
    Ms. Leaf. Sir, they are very, very different cases, but to 
take Yemen, which on any given day, you know, has pretty 
daunting challenges, I mean, across the board. I mean, you 
know, you have a population of 24 million; 40 percent 
unemployment; you know, 1 million cases of what is termed acute 
malnutrition; and almost 50 percent of the population has what 
we call food insecurity; and a significant portion of the 
population struggles to get access to clean water and 
sanitization services. So, on the one hand, you have got this 
daunting economic picture; on the other hand, you have got a 
pretty daunting security picture.
    Mr. Yoho. So, at this point right now, they are more 
concerned about survival than a Constitution and property 
rights, and all that.
    Ms. Leaf. Well, not so, not so entirely. Yes, there are 
people who are just struggling to survive every day, but the 
thing about this dialogue, which is so extraordinary, is it is 
tapped into people across the country that have really never 
had a voice. And I tell you, I spent----
    Mr. Yoho. I am going to have to cut you off because my time 
has expired.
    Ms. Leaf. Okay.
    Ms. Ros-Lehtinen. We will let her finish.
    Mr. Yoho. Okay, thank you, Miss Chairman.
    Ms. Leaf. I spent a whole afternoon with about three or 
four dozen extraordinarily outspoken and feisty Yemeni women, 
many of whom were participants in the national dialogue, others 
who were simply active in various civil society domains. And 
having wrestled through this process, as sort of a minimal 
floor of participation, they are determined to hang on to it, 
come what may. And they are determined to hang on to it through 
the next steps of the constitutional drafting. But all of these 
people who are new voices in the national dialogue are going 
back to their communities and taking back that experience. So 
it is really, I have to say, it is quite extraordinary. We 
won't see a Constitution that looks like ours.
    Mr. Yoho. Right.
    Ms. Leaf. It will be a Yemeni-style Constitution, but I 
think it will respond to some things.
    Mr. Yoho. Thank you, ma'am.
    Thank you, Ms. Leaf.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chairman. Thank you for 
calling this hearing.
    Deputy Assistant Secretary Leaf, thank you for being here, 
as you said, addressing the issues in two very important 
countries.
    Starting first with Yemen, and just to put it in maybe a 
frame, in your words, this is a historic seismic transition in 
the context of unprecedented challenges, including spoilers 
inside the country, as well as urgent humanitarian needs. You 
kind of touched, Yemen is the poorest of the Arab countries. It 
has food insecurity widespread. It has a lack of water, a 
shrinking supply of water. And yet, at the same time, for all 
of those challenges, we are dealing with the presence of al-
Qaeda in the Arabian Peninsula, an external threat, but a 
threat that is not just to Yemen but to the entire region. Both 
the historic transition and the challenge to al-Qaeda requires, 
again, a word you used a few times, capacity building. What are 
the most critical issues from our standpoint as we are looking 
at American policy, vis-a-vis Yemen that we need to focus on to 
make sure that there is capacity to address the humanitarian 
needs internally, but also to ensure that AQAP is a threat we 
can work to eliminate rather than see expand?
    Ms. Leaf. Thank you, Congressman.
    You know, we are, and I saw this myself in meeting with the 
Group of 10 Missions, who meet on a weekly basis in Sana'a and 
basically compare notes, compare approaches, and coordinate 
tightly as the international community, and that includes the 
U.N.'s Special Representative for Yemen's Transition and 
economic assistance agencies.
    We coordinate tightly, but we are doing--essentially what 
you said is the Yemenis bitten off a lot. Have they bitten off 
too much? I think they have no choice--they view themselves as 
having no choice but to do it all. They are tackling 
assiduously the political challenges. They are coming forward 
slowly to tackle the economic challenges, but I think it is 
there that the donor community has to continue to provide 
technical expertise to make up for the lack of capacity that is 
evident in many of the ministries. And on the security front, 
we are evaluating on just a constant basis how best we can 
calibrate our security assistance and training to help the 
security forces, the military, continue to stand up in terms of 
their capacity to secure their borders but also to take the 
fight to al-Qaeda. It is a lot to do. They view themselves as 
having no choice but to do all at the same time, and we are 
helping on all of those fronts, in addition to helping with aid 
that we push through the U.N. principally to help them get 
their most urgent humanitarian needs met.
    Mr. Schneider. And unfortunately, I have limited time, but 
let me shift gears a little bit. These are two very different 
countries with very different challenges, but a common thread 
for both of them is the fingerprints, if you will, of Iran and 
Iran trying to influence what is happening. Can you touch a bit 
on how Iran is trying to affect events in Yemen, and in 
particular, more so in Bahrain, and efforts of Bahrain to 
counter that influence?
    Ms. Leaf. As you are probably aware, there was--the Yemenis 
seized the dhow of Iranian origin with arms last January that 
was clearly en route to support elements of the Houthis 
community. I don't want to tar the whole Houthis population in 
Yemen to suggest that they are sort of a backdoor in any sense 
for Iran. The Houthis have representation in the national 
dialogue. There are elements, however, who were fighting the 
central government, and indeed, there were five or six such 
wars with Saleh's regime over the past years. There is evidence 
of Iranian meddling. I think it would, as in--and I will speak 
to it in a minute in Bahrain, but I think it would be best to 
do this in a restricted session if you want more granularity on 
it.
    On Bahrain, let me say two things. The events of 2011 were 
Bahraini driven, are Bahraini originated. And at the same time, 
there has been evidence or concern, certainly expressed by the 
Bahrainis, and we have seen some evidence that Iran is 
fostering some of the sectarian sort of conflict, especially by 
media incitement. Again, I think I would rather do this in a 
restricted session, if you want to do more.
    Mr. Schneider. I would welcome that.
    Ms. Leaf. Okay.
    Mr. Schneider. I mean, there is obviously concern about 
Iranian intentions, and they continue to put pressure on Iran 
and their influence in the region, so I would welcome that 
opportunity. And with that, I have extended my time.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair.
    And I thank you for being here, by the way, today. We 
appreciate your willingness to be here. I just want to touch on 
a couple of brief issues. I have seen recent reports that the 
administration is considering or maybe trying to reengage in 
the idea of closing Guantanamo and transferring the prisoners 
to Yemen. I want to ask you first off if you are aware of any 
effort to do that? Is that in fact true, or is that not true, 
or----
    Ms. Leaf. Thank you, Congressman. Well, the President moved 
earlier this year to release, essentially, the embargo on 
returning Yemeni nationals from Guantanamo. But there is a--but 
there is a case-by-case review of all such cases that has to be 
done. And it will necessarily hinge on a number of issues, 
including security issues and the capacity of the Yemeni 
Government to take back and secure anyone who was transferred. 
So there is not an immediate----
    Mr. Kinzinger. But there is discussion, then?
    Ms. Leaf. Yes.
    Mr. Kinzinger. And does that discussion include a 
rehabilitation program like was implemented in Saudi Arabia?
    Ms. Leaf. So, there is a U.N. body uniquely which has the 
resident expertise on these issues, and it has established as 
steering group. We are part of it, and a number of other 
countries are part of that effort to look at providing 
technical assistance to the Yemeni Government, about how to 
stand up such a program in its early stages. But Cliff Sloan, 
whom I think you may know is our envoy on Guantanamo closure. 
He is engaged in those discussions.
    Mr. Kinzinger. Okay, I just think it is important to point 
out, in 2009, the GAO report the chairwoman actually 
commissioned, showed that there was a 20 percent recidivism 
rate among those, and when you look at a place as unstable as 
Yemen and you look at, frankly, the challenges they have, I 
think that is definitely of concern and I think something that 
ought to be put on the record.
    You touched on it briefly, but let's say something like 
this actually moves forward, and what can we do, how can we 
ensure that the Yemeni Government has--by the way, I was in 
Yemen last year and just for a brief period. It was like a 24 
hours, but how can we help ensure that they, you know, run the 
program correctly, they have the resources, and that these guys 
aren't either taken out of prison or released prematurely?
    Ms. Leaf. Congressman, those are all issues that we are 
looking at in detail. We are--we would be quite concerned to 
see that any such program is sustainable and is sound. And that 
is why we, the Yemenis will rely principally on UNICRI to lead 
this effort. There will undoubtedly be funding needs, but it 
will be, to say the least, it would be a very methodical effort 
and one that we will carefully evaluate before moving ahead.
    Mr. Kinzinger. Okay, and then just briefly to touch on 
Bahrain, what are the benefits, and I am supportive of it. I 
just want to hear it from your end. What are the benefits of 
having the Fifth Fleet headquartered in Bahrain?
    Ms. Leaf. Well, the Fifth Fleet has been there for decades, 
as you know, and the Bahrainis have provided a level of support 
and access to necessary facilities that is really unparalleled. 
They have also been ready and able participants in both 
exercises for our fleet as well as partners in security 
operations going back to Desert Storm, and most recently in 
Afghanistan, where they provided security forces to guard our 
forces in the Helmand Province. It is a longstanding 
relationship. It is, as I say, they have been unstinting in 
their support for our needs there, that spanned, you know, the 
spectrum of the CENTCOM AOR.
    Mr. Kinzinger. Okay, great.
    I yield back, thank you.
    Ms. Ros-Lehtinen. Thank you so much.
    Now I am pleased to yield to Mr. Chabot, the chairman of 
the Subcommittee on Asia and the Pacific.
    Mr. Chabot. Thank you very much, Madam Chair.
    Just a couple of questions. I was also in Yemen about a 
year ago, I guess, and we actually went to another country 
prior to that and in the air we learned that over 100 troops 
had been killed on parade grounds and an explosion, and I don't 
know if we were still going to come. We did. But the concern I 
guess a lot of us have at this point, is how is the vetting now 
amongst those types of things compared to back then? I mean, 
these were actually, to my recollection they were a number of 
people that were either troops, or dressed up as troops. I 
think they were troops that had actually been responsible for 
the explosion. And my recollection is it was like 100-plus 
killed and 200-plus wounded. I don't remember if it was a 
graduation ceremony, but it was something, you know, somewhat 
festive occasion, so it hit the country extremely hard, and so 
anything you would like to comment on that, or anything 
following that, I would be interested.
    Ms. Leaf. It indeed was a shocking incidence of AQAP's 
ability to reach in and strike, and indeed, over these past 
months, what we have seen is after a period last year when the 
government essentially pushed AQAP out of pieces of the south 
that it was essentially holding territory, what you have got 
now is a more dispersed AQAP that focuses on sort of guerilla 
tactics and asymmetrical attacks against Yemeni forces.
    You know, I wish there were a silver-bullet approach to 
this. There isn't. We know it. The Yemenis know it. It requires 
a very methodical kind of capacity building across both 
conventional forces as well as more elite units, and that is 
something that we are engaged in as well as the range of 
traditional professional military education tools and so forth. 
But it is something we really have bitten into and that we are 
very committed to.
    Mr. Chabot. Okay, thank you, and my second question 
relative to Yemen is, you just touched on it, and that is that 
at the time, there were pretty significant portions of the 
southern part of the country that were under AQAP's control, 
and they have had some success there, but success also 
sometimes breeds other difficulties, and that is the dispersal 
in other areas. Could you discuss the greater challenges that 
faces and what we are doing to assist the Yemenis in battling 
AQAP in its current form rather than when it was in a certain 
area?
    Ms. Leaf. I think if you would allow me, I would like to 
default to a restricted setting on that.
    Mr. Chabot. All right, that is fine. That is fine. Thank 
you. Let me shift over to Bahrain just for a moment then. And 
they are obviously in relatively close proximity to Iran, as 
the other Gulf states are, and they are very wary of Iran, and 
in the recent things which almost occurred in Geneva, I am just 
wondering what the administration is hearing from some of those 
countries that are very close relative to possible loosening of 
the sanctions on nuclear weapons with respect to Iran in return 
for at least concessions on paper on moving in the other 
direction on the nuclear program?
    Are we hearing concerns from those countries, especially 
Bahrain? I would assume that we are.
    Ms. Leaf. Thank you, Congressman.
    We are engaged in sort of a constant rolling conversation 
with the Gulf countries, including Bahrain, on these issues. 
And in September, on the margins of the U.N., we had the third 
session of the US-GCC strategic cooperation forum, and that was 
a forum in which we talked in detail about their anxiety 
levels, which are longstanding. This is not new. Bahrain, as 
you say, has some more acute concerns, especially given sort of 
the historically irredentist tendencies of Iran vis-a-vis 
Bahrain and the tendency to direct problematic broadcasting in 
Bahrain.
    But we have used not only that form but very high level 
conversations on a very ongoing basis, including Secretary 
Kerry's most recent trip through the Gulf, to reaffirm the 
depth of our commitment to their security, one and all, 
including Bahrain.
    Mr. Chabot. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Weber of Texas.
    Mr. Weber. Gosh, I am thinking all my answers are going to 
be in a classified setting.
    Do you believe, Ms. Leaf, that al-Qaeda in that area has 
been decimated?
    Ms. Leaf. I can only refer--I can only repeat exactly what 
the President said in May. It is the most active affiliate 
targeting and plotting against the homeland.
    Mr. Weber. Would you hazard--well, let me put it this way. 
You are getting help--we are getting help from the FBI and the 
CIA actively engaged I am assuming.
    Ms. Leaf. Uh-huh.
    Mr. Weber. Okay, would you hazard a guess as to how many 
al-Qaeda fighters there are in both of those countries?
    Ms. Leaf. I wouldn't in this setting, you are absolutely 
right. But I would be happy to look for that and get it to you 
in a----
    Mr. Weber. Okay, a lot of workers, Yemeni workers kicked 
out. Of course, the Saudis announced they were halting aid and 
kicking out workers. There is a strain between us and the 
Saudis over what is going on in the peace process.
    Do you think, is that a good, is that a fair and accurate 
assessment? Do you think that is why it is happening?
    Ms. Leaf. Actually, I would like to correct a 
misapprehension here. The Saudis are not halting aid. In fact, 
I discussed a range of assistance issues with them when I was 
there this past week, and they are actually acceding to some 
additional bilateral requests that the Yemeni Government made 
recently.
    The worker issue is a separate one, and it is part of a 
larger push to essentially legalize all workers in the country. 
Obviously, and the Yemenis raised this with me, the Yemeni 
Government raised their concerns about the economic effect of 
these workers coming back.
    What I heard back from the Saudis was they were in no way 
targeting the Yemenis. They do want everybody to regularize, 
and they said it obviously behooves them and the Yemeni 
Government to have a more structured discussion of that. So I 
think that would be--that is something we will encourage.
    Mr. Weber. So, in your discussion, you are not hearing any 
mention of the peace process going on between John Kerry about 
the sanctions with Iran?
    Ms. Leaf. Oh, you mean with the Saudis?
    Mr. Weber. Uh-huh.
    Ms. Leaf. No. No. No that was, I mean the----
    Mr. Weber. I am talking about you personally.
    Ms. Leaf. Of course. I mean, I didn't discuss the peace 
process. I discussed the range of regional issues with the 
Saudis when I was there last week.
    Mr. Weber. And they tied it to the peace process, which you 
didn't discuss?
    Ms. Leaf. No. No. They did not.
    Mr. Weber. They did not tie it to the peace process?
    Ms. Leaf. No.
    Mr. Weber. So they didn't raise that concern about our 
apparent path to easing the sanctions on Iran? They have not 
raised that with you.
    Ms. Leaf. No. They had a full, full discussion of that 
between the king and Secretary Kerry as well as other cabinet 
ministers, yes.
    Mr. Weber. And US aid to Yemen has spread across a number 
of different program areas. Two questions. Is all of our aid 
getting marked? When we send aid into a country, USA, there has 
been some discussion about taking off our stamp so that some of 
the insurgents won't go right at it or the people receiving it. 
Are we experiencing that in those countries?
    Ms. Leaf. Let me get back to you. I don't believe so, but 
let me get back to you on that, sir.
    Mr. Weber. Well, then a follow-up question is, you may or 
may not know the answer is, of those programs, which one is 
yielding us the best bang for the buck?
    Ms. Leaf. In Yemen, I would say without question the 
support that we have provided to the national dialogue; 
technical expertise, mentoring of delegates, you know, legal 
and other expertise provided to help them shape their 
discussions.
    Mr. Weber. And you may have answered this question earlier, 
and that is we are seeing, I am hoping or I am guessing we are 
seeing heightened awareness of security concerns in that area? 
In other words, we don't want to repeat a Benghazi, obviously. 
So what is being done to prevent that?
    Ms. Leaf. In terms of our mission in Sana'a, yes. No, we 
have an extraordinarily robust set of security arrangements 
there for our mission and for the facility where our people are 
housed. And I would obviously not want to go into those in 
detail here. We are doing enhancements that build on others of 
the last couple of years, but security is front and center for 
us there.
    Mr. Weber. Madam Chair, I yield to the classified setting.
    Ms. Ros-Lehtinen. Thank you. And we do look forward to 
maybe having a session with you in a classified setting in 
order to answer Mr. Weber's----
    Ms. Leaf. Absolutely.
    Ms. Ros-Lehtinen. Concerns and others.
    I just have one last question, and I will have Mr. Deutsch 
ask one last question as well.
    As we speak, Senator Kelly Ayotte is presenting an 
amendment to the NDAA bill prohibiting the U.S. from any 
transfers of GTMO detainees to Yemen or to the United States.
    Do you care to comment on that amendment?
    Ms. Leaf. Well, I can only affirm--reaffirm the President's 
policy on this which is to see a closure, an eventual closure 
of the facility. As to the issue of returning Yemeni nationals, 
detainees to Yemen, obviously, that is part of the closure of 
the facility. We have, as I indicated, a very thorough 
understanding of the challenges that relate to doing so, and we 
would only do so in a very careful, methodical fashion that 
would be in our national security interests.
    Ms. Ros-Lehtinen. Thank you ma'am, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Thank you.
    The remaining questions I have I would also like to ask in 
a classified setting.
    Ms. Ros-Lehtinen. So we look forward to doing that.
    And with that, the subcommittee is adjourned. Thank you. 
Thank you to our Capitol Police officers.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
